No. 20-5923
IN THE

Supreme Court of the United States
CHARLES DON FLORES,
Petitioner,
v.
TEXAS,
Respondent.
On Petition for a Writ of Certiorari
to the Court of Criminal Appeals of Texas

PROOF OF SERVICE

I am a member of the Bar of this Court, and I hereby certify that on the 7th
day of December, 2020, a copy of Respondent’s Brief in Opposition to Petition for a
Writ of Certiorari was sent by mail and electronic mail to counsel for Petitioner,
Gretchen Sims Sween, P.O. Box 5083, Austin, Texas 78763-5083,
gsweenlaw@gmail.com. All parties required to be served have been served.
/s/ Jaclyn O’Connor Lambert
JACLYN O’CONNOR LAMBERT
Assistant District Attorney
Frank Crowley Courts Bldg.
133 N. Riverfront Blvd., LB-19
Dallas, Texas 75207
(214) 653-3625
Jaclyn.OConnor@dallascounty.org
Counsel for Respondent

